<html>
<title> - ISSUES FOR SURFACE TRANSPORTATION AUTHORIZATION</title>
<body><pre>[Senate Hearing 112-918]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-918

            ISSUES FOR SURFACE TRANSPORTATION AUTHORIZATION

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 14, 2011

                               __________

  Printed for the use of the Committee on Environment and Public Works


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       Available via the World Wide Web: http://www.fdsys.gpo.gov
                               __________
                               
                          U.S. GOVERNMENT PUBLISHING OFFICE 

88-765 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                              
                               











               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

       Bettina Poirier, Majority Staff Director and Chief Counsel
                 Ruth Van Mark, Minority Staff Director




















                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 14, 2011
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........     1
Inhofe, James M., U.S. Senator from the State of Oklahoma........     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware, 
  prepared statement.............................................   115
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont, 
  prepared statement.............................................   116
Udall, Hon. Tom, U.S. Senator from the State of New Mexico, 
  prepared statement.............................................   117

                               WITNESSES

Smith, Fred, chairman, president and CEO, FEDEX Corporation......     3
    Prepared statement...........................................     5
Thomas, Hon. Sharon, councilwoman, city of Las Cruces, New Mexico    19
    Prepared statement...........................................    21
Searles, Brian, Secretary, Vermont Agency of Transportation......    24
    Prepared statement...........................................    27
Lewis, Michael, director, Rhode Island Department of 
  Transportation.................................................    35
    Prepared statement...........................................    38
Ridley, Gary, secretary, Oklahoma Department of Transportation...    42
    Prepared statement...........................................    45
Cox, John F., director, Wyoming Department of Transportation.....    62
    Prepared statement...........................................    65
Cooper, John R., director, Alabama Department of Transportation..    79
    Prepared statement...........................................    81

                          ADDITIONAL MATERIAL

Article, Rhode Island has the 4th-worst Bridges in the Nation, 
  by: PBN Staff, published on March 31, 2011.....................   108
Statement, The American Trucking Association.....................   119

 
            ISSUES FOR SURFACE TRANSPORTATION AUTHORIZATION

                              ----------                              


                        THURSDAY, APRIL 14, 2011

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Max Baucus 
(chairman of the Subcommittee on Transportation and 
Infrastructure) presiding.
    Present: Senators Baucus, Inhofe, Sessions, Carper, 
Sanders, Whitehouse, Barrasso, Merkley and Boozman.

 STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE STATE OF 
                            MONTANA

    Senator Baucus. The hearing will come to order. Good 
morning everybody, welcome to the hearing entitled Issues for 
Surface Transportation Authorization.
    We have an excellent panel representing a cross-section of 
industrial, State and local interests. I will be chairing this 
morning's hearing on behalf of the Chairman, Senator Barbara 
Boxer. In the interest of time, I ask, frankly, that we waive 
Senators' opening statements. Let's be a little bit more 
efficient around here and move straight to the witnesses' 
testimony. Senators will obviously be permitted to include 
their statements for the record.
    I also think it would be appropriate for Members of this 
panel to themselves introduce witnesses from their States or 
maybe tied to that particular Senator in any other special way. 
So I will turn to you, Senator Inhofe.

STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM THE STATE 
                          OF OKLAHOMA

    Senator Inhofe. I will just go ahead and waive an opening 
statement and get to our witnesses. I want the honor of 
introducing Gary Ridley from Oklahoma, and I am sure that 
Senator Barrasso and Senator Sessions and maybe others might 
want to take care of their witnesses.
    [The prepared statement of Senator Inhofe follows:]
       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma
    I have often said that I truly believe Gary is one of the best--if 
not the best--DOT heads in the Nation. Gary came to the Oklahoma 
Department of Transportation in 1965 when he started as an equipment 
operator and worked his way up to Division Engineer.
    When Brad Henry, a Democrat, was elected Governor of Oklahoma in 
2002, I called him and asked for only one thing: for him to keep Gary 
on as Director of ODOT. Fortunately for Oklahomans, he did. In 2009 
Gary was appointed Transportation Secretary, a position he still holds, 
as well as serving concurrently as the director of the Oklahoma 
Turnpike Authority.
    I first realized just how great Gary was back in 2002 when a barge 
took out a 580 foot section of the I-40 bridge at Webber Falls. Sadly, 
14 people lost their lives in that tragedy. The bridge fell on May 26th 
and, due to the excellent work of Gary, the bridge was reopened to 
traffic on July 29th. Think about that for a second: two spans of a 
bridge were replaced in just 2 months. Normally, a project of this 
magnitude takes an average of 13 years to complete--most of the delays 
are due to Federal red tape and billions of dollars are wasted in 
taxpayer money.
    We can deliver projects dramatically faster than we currently do 
while still protecting the environment. Reducing the time it takes to 
deliver transportation projects I know is a priority for all of us, 
which hopefully means we can get something meaningful done in the next 
highway bill.
    I would also like to draw attention to Gary's concerns about EPA's 
proposal to revise the Nation's air quality standards for ozone. I 
share his concerns. After much effort and cost, Oklahoma currently has 
no ``nonattainment'' areas. But because of EPA's ever-changing 
definition of ``clean air,'' economic development--indeed, many of the 
very transportation system improvements and capacity expansions we 
contemplate today--is being threatened.
    The Nation's ozone standards are a prime example. EPA, in 2008, 
significantly tightened the standards as part of its statutory 5 year 
review. Yet the Obama administration has made a political decision to 
revise that standard outside of the 5-year review cycle. This creates 
tremendous confusion for State and local communities and businesses 
that have to meet the requirements.
    The standards EPA is now considering could put as many as 15 of 
Oklahoma's counties into nonattainment status. Indeed, over 650 
counties across the country could be in violation, even though many of 
them have what EPA considered ``clean air'' just 2 years ago.
    I look forward to hearing from our witnesses on ideas that will 
make it easier, not harder, to improve our deteriorating 
infrastructure, create jobs, and strengthen our global competitiveness.

    Senator Baucus. All right. Our first witness is Mr. Fred 
Smith, chairman and CEO of FedEx. Next is Sharon Thomas, 
councilwoman, City of Las Cruces, NM, then Brian Searles, 
secretary, Vermont Agency of Transportation; Michael Lewis, 
director, Rhode Island Department of Transportation; and next, 
Gary Ridley, secretary of the Oklahoma Department of 
Transportation.
    Do you wish to introduce Mr. Ridley?
    Senator Inhofe. As they come up.
    Senator Baucus. OK. Fine. Then Mr. John Cox, director of 
the Wyoming Department of Transportation; and finally, last but 
not least, Mr. John Cooper, director of the Alabama Department 
of Transportation.
    OK. Let's get down to business here. Let's begin right down 
the line here, beginning with you, Mr. Smith, and let's hear 
what you have to say.
    Senator Sessions. Mr. Chairman, could I introduce my 
Alabama witness?
    Senator Baucus. You want to do that now or do you want to 
do it later?
    Senator Sessions. Now would be great, if you would allow 
me.
    Senator Baucus. Let's do it now.
    Senator Sessions. Mr. Cooper was recently appointed by 
Governor Bentley. Dr. Bentley chose him to head the Highway 
Transportation Department. He was recently CEO of Avocent 
Corporation, a manufacturer of technology products 
headquartered in Huntsville, with operations around the world. 
Prior to that, he was chief financial officer and senior vice 
president for Finance and Administration at ADTRAN of 
Huntsville, a global telecommunications provider, one of 
Alabama's largest home-grown companies and most successful.
    He was also managing partner with a large accounting firm, 
served as partner and leader of Arthur Young and Company's 
audit practice in Birmingham, received his B.A. degree in 
accounting from, and master's, from the University of Alabama. 
When the Governor announced his appointment of Mr. Cooper, he 
stated, ``A first-class transportation system is a critical 
part of my plan for economic growth and bringing good-paying 
jobs to the citizens. John Cooper has the managerial experience 
and leadership qualities to ensure that Alabama has the right 
transportation infrastructure.''
    I agree. Mr. Cooper, we are glad to have you here and thank 
you for coming.
    Thank you, Mr. Chairman, for giving me that moment.
    Senator Baucus. You bet. Thank you, Senator.
    Again, Mr. Smith, why don't you start out.

  STATEMENT OF FRED SMITH, CHAIRMAN, PRESIDENT AND CEO, FEDEX 
                          CORPORATION

    Mr. Smith. Thank you very much, Senator. I have submitted a 
written statement for the record and will just summarize it 
here, if that is acceptable to you.
    Senator Baucus. Absolutely. Obviously, all statements will 
be in the record.
    Mr. Smith. I appreciate your having me up here. I am 
wearing two hats today. Obviously, I make my living at FedEx. 
FedEx is about a $40 billion transportation company that 
operates 700 airplanes, moving 8.5 million shipments to 220 
companies around the world. We fly about 500,000 miles in those 
aircraft every day. We have about 80,000 vehicles that drive 
millions of miles every day. So as you might imagine, we are 
quite focused on the issue of petroleum and oil supplies.
    I also serve as the co-chairman of the Energy Security 
Leadership Council, which is a group of retired four-star 
admirals and generals, and several major corporate CEOs who, 
like FedEx, use a great deal of energy, like Southwest Airlines 
and Royal Caribbean and so forth. I am a member of the 
Electrification Coalition.
    We believe that the Nation's dependence on petroleum, after 
terrorism and weapons of mass destruction, is the Nation's 
largest single national security and economic risk. In 2008 
when the price of oil went up to $147 a barrel, U.S. families 
and businesses spent $900 billion or 6.4 percent of GDP buying 
petroleum products. It would be great if there were a free 
market solution to our problem in this regard, but there is no 
free market for oil. It is managed by a cartel which if it were 
doing what it does in the United States, it would be illegal.
    To solve this problem, you have to focus on three areas: 
vehicles, fuels and infrastructure. While we have made enormous 
strides on vehicles, fuel efficiency in particular, we need to 
focus a great deal of attention on fuels, which is the focus of 
the Electrification Coalition. It is our belief that 
electrification of the light-duty fleet in the United States 
offers the largest potential for reducing our oil importation 
requirements.
    Then finally there is infrastructure, which is where this 
committee comes in. We believe at the Energy Security 
Leadership Council that the transportation policies of the 
United States should be linked specifically to petroleum 
consumption goals. In fact, we issued a report in February of 
this year called Transportation Policies for America's Future, 
which are recommendations for reforms designed to transform the 
Nation's transportation policy, introducing a more market-
oriented model and instituting oil consumption as a key metric 
by which decisions are made and evaluated.
    Specifically, we recommend the establishment of a national 
oil savings performance metric in choosing and evaluating 
transportation projects; second, the replacement of select 
programs with both formula and discretionary programs 
specifically designed to reduce congestion in metropolitan 
areas; third, a program to maintain and improve highway 
capacity outside of metropolitan areas and along major freight 
corridors; Federal efforts to improve the productivity of our 
freight transportation systems; a streamlined environmental 
process for transport projects; and ultimately alternatives to 
the current fuel tax regime to address funding challenges.
    We believe that smarter, more efficient and more market-
oriented infrastructure projects represent an important element 
of any comprehensive policy to end our Nation's dangerous 
dependence on imported petroleum from areas of the world which 
are hostile to U.S. interests.
    With that, I will be happy to take questions, Senator.
    [The prepared statement of Mr. Smith follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       

    Senator Baucus. Thank you, Mr. Smith.
    Next, Hon. Sharon Thomas.

  STATEMENT OF HON. SHARON THOMAS, COUNCILWOMAN, CITY OF LAS 
                           CRUCES, NM

    Ms. Thomas. Good morning, Senator Baucus and Members of the 
committee. Thank you for the opportunity to appear before you 
today.
    I am a retired English professor who moved to Las Cruces, 
NM in 2003. In 2007, I ran for city council and was elected. 
Las Cruces is a town of 97,618 (we just got our 2010 census) 
located in the Mesilla Valley between the Organ Mountains and 
the Rio Grande, 45 miles north of El Paso, TX. Las Cruces has 
received several awards, including ranking from Money Magazine 
as one of the best college towns to retire in, and from AARP as 
one of the dream towns for retirement.
    Since election to the City Council, I have served on the 
Metropolitan Planning Organization, the South Central Regional 
Council of Governments, and on our newly formed South Central 
Regional Transit District.
    When I first moved to Las Cruces, my interest was focused 
more on planning neighborhoods where residents could live, work 
and play. Since that time, I have come to realize that it is 
all connected. How a community is laid out, roads, transit, 
pedestrian and bicycling facilities, open space, public areas, 
commercial areas, housing choices, economic development, health 
issues are all related.
    So, of course, when the Environmental Protection Agency, 
Housing and Urban Development, and the Department of 
Transportation formed the Partnership for Sustainable 
Communities, I knew I had found the model for combining land-
use and transportation planning.
    In 2009, our project, Picturing El Paso, was one of four 
chosen to participate in EPA's technical assistance program to 
help us develop a vision for the street that connects our 
downtown and New Mexico State University. When EPA joined the 
Sustainable Communities Partnership, our project, Picturing El 
Paso, became part of that program as well.
    During 2010, we worked with our Federal partners and 
community participants to develop our vision. In that vision, 
El Paseo Road would be transformed from a vehicle-clogged, 
dying, strip mall-lined street into a mixed-use pedestrian and 
bicycle-friendly, tree-lined boulevard with multiple 
transportation options, a range of housing choices, and plenty 
of public gathering places. This is what the community told us 
they wanted.
    At our Transportation Summit in September 2010, we heard 
similar messages from the over 100 in attendance. We passed on 
those suggestions to Secretary Ray LaHood when he visited our 
city in October 2010.
    In New Mexico, too often, transportation planners have torn 
out our Main Streets in order to get better traffic ``flow'' 
blow and destroyed our small towns. We want to see 
transportation planning that takes into a account all users of 
the roadway, as well as the surrounding context of that 
roadway.
    As part of the Surface Transportation Authorization, we 
would like to see financial support for livable community 
projects such as the recent TIGER grants that can help us build 
communities that are safer, more livable, and welcoming to 
everyone.
    As the Coalition for Sustainable Communities has grown 
across the country, we have noticed the addition of one more 
adjective, healthy. In Las Cruces, we are particularly 
interested in healthy, sustainable communities because of our 
high rates of childhood obesity and diabetes.
    When schools are not accessible by biking and walking, 
students lose an important daily opportunity to exercise. 
Unfortunately, the schools in our city have typically been 
located on busy streets, fenced off from surrounding 
neighborhoods, and primarily designed for students to be 
dropped off by vehicle.
    Our Safe Routes to School Program is changing all that. We 
now have walk and bike to school programs, bicycle safety 
classes, more bike lanes and bike racks, and better sidewalk 
markings.
    As Congress moves toward Surface Transportation 
Authorization, we would like to see greater recognition of the 
impact transportation planning has on the health of communities 
and more support for programs like the Safe Routes to School 
Program.
    Certainly, our local projects cannot continue without a new 
Surface Transportation Authorization. As you move forward with 
that legislation, I hope you will recognize the impact that 
transportation facilities have on all aspects of our 
communities, and work toward a new vision for transportation 
legislation and policies that do away with the silos that 
currently exist between land use and transportation planning so 
that we can promote communities that are healthy, livable, and 
sustainable.
    Thank you for the opportunity to appear before you today. I 
am looking forward to a new Surface Transportation 
Authorization that will coordinate transportation planning with 
housing, land-use planning, and economic development so that 
all Americans can live in healthy, sustainable communities.
    [The prepared statement of Ms. Thomas follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Baucus. Thank you very much, Ms. Thomas. I 
appreciate your testimony.
    Senator, do you want to introduce your witness?
    Senator Sanders. Thank you very much.
    I want to welcome Brian Searles, Vermont's new secretary of 
transportation. He has only been on the job for a few months, 
but he is certainly familiar with transportation issues. In 
fact, this is his second stint as transportation secretary 
during more than 40 years of public service. He is really one 
of the more knowledgeable public servants that we have in the 
State, working in a variety of areas.
    Recently, he was the director of the Burlington 
International Airport. He has been a police chief. He has been 
a city manager. He has been director of the Vermont Criminal 
Justice Training Council, the State commissioner of Personnel, 
and the deputy secretary of administration.
    So we thank him very much for joining us today.
    Thank you, Mr. Chairman.
    Senator Baucus. Thank you, Senator.
    Mr. Searles, why don't you proceed?

   STATEMENT OF BRIAN SEARLES, SECRETARY, VERMONT AGENCY OF 
                         TRANSPORTATION

    Mr. Searles. Thank you, Chairman Baucus, Ranking Member 
Inhofe and other Members of the committee. I am pleased to have 
the opportunity to talk about a few transportation challenges 
facing small States and rural areas. I believe the challenges 
we face are critical considerations as we move toward the next 
Transportation Reauthorization bill.
    Both the quality and quantity of the transportation systems 
that serve small States and rural areas have steadily eroded 
over several decades. Economic and demographic shifts, coupled 
with long-term under-investment have all had detrimental 
impacts on mobility, economic opportunities and the quality of 
life for rural residents.
    One challenge I want to emphasize today is that of 
maintaining infrastructure in northern-tier States. Maintaining 
transportation infrastructure has always been a challenge, and 
according to the Federal Highway Administration, 80 percent of 
the national road network is rural roads, accounting for 3.1 
million miles of the U.S. transportation system.
    City and county governments, which rely heavily on State 
DOT funding, are responsible for 95 percent of unpaved and 55 
percent of paved roads. While most States have a backlog of 
deferred paving projects, these backlogs are particularly 
pronounced in small States and rural areas that receive a 
disproportionately smaller share of Federal transportation 
transfers, even with the minimum set-aside supplement.
    As you know, Mr. Chairman, States with severe winters and 
temperature variations are even more prone to higher roadway 
maintenance costs, the corroding effects of salt, liquefied 
snow removal agents, coupled with continued freeze-and-thaw 
cycles and the wear and tear of snow removal for highway safety 
adds significantly to the cost of roadway maintenance budgets.
    Another rural challenge is inadequate bridge structures. 
Approximately 30 percent of Vermont's nearly 2,700 long bridge 
structures are considered structurally deficient or 
functionally obsolete.
    Per capita, rural States maintain significantly more bridge 
miles than the national average. For example, Vermont maintains 
429 square feet of Interstate bridges per capita, 33.2 percent 
above the national average, ranking 11th among the States.
    Of course, this leads to a discussion of money, and 
compounding the money challenges for small and rural States is 
the very limited ability to raise additional revenues to close 
funding gaps through, for example, public-private partnerships 
or tolls.
    Transportation has an inordinately high impact on household 
budgets in rural areas due to sprawling land-use patterns that 
date back to farm economies in existence for over 200 years. 
Residents of rural States travel longer distances to worksites 
and needed services such as health care and employment 
training. Rural residents also tend to have lower incomes than 
the national average. This affects family budgets and 
transportation costs account for the second-highest spending 
category after housing costs. These family budgets are 
increasingly under strain due to high energy costs.
    The demographic trends of rural areas are also different 
from urban areas and exacerbate transportation challenges. Most 
rural States are aging and the share of residents over 65 
account for a significantly rates than their urban 
counterparts. As older residents require more transportation 
services, providing those services to sparsely populated areas 
will cost even more in the future.
    Rural States, especially border States, play an 
increasingly important role in the movement of goods and the 
enhancement of national and global trade. This leads to 
concerns about roadway maintenance costs along the national 
highway system. Over 40 percent of Vermont's freight are 
through-flow trips that neither originate or are destined for 
Vermont.
    Environmental challenges require transportation policies to 
support strategies to modernize vehicle fleet efficiencies and 
reduce vehicle miles traveled. The steady increase in VMTs from 
the 1970's to the 1990's has begun to stabilize. Moreover, 
consumers have begun to purchase more fuel-efficient vehicles 
and the Nation's fleet will continue to meet the higher 
efficiency standards. Since our funding is related mostly to a 
per-gallon gas tax, the problem here is that our environmental 
goals run counter to our transportation funding and will cause 
problems in the future.
    Very quickly, what to do about this? Some suggestions I 
would make is that through the Reauthorization Bill, we 
concentrate on those systems that can connect small or mid-size 
communities to the national surface transportation network 
because without a healthy transportation system, the Nation's 
metropolitan areas will also suffer.
    I order to ensure the viability of small State and rural 
transportation systems, we need to reinvent funding mechanisms 
and not be too dependent on that per-gallon gas tax.
    There is also a need to streamline Federal funding and the 
regulatory process and allow flexibility in shifting funds 
between modes. Small and rural States provide operating funds 
to transit and rail systems that pay a high portion of their 
State transportation funds toward these critical modes.
    Finally, I would encourage you to support major regional 
and national initiatives that have transportation advantages of 
connecting small States and rural areas to larger cities. As an 
example, the national rail corridor, Northeast Rail Corridor 
has the potential to redefine future modal splits and reduce 
our dependence on the automobile. Raising transit and rail 
ridership will benefit our Nation's highway network as well.
    I know you have a huge task in front of you and I want to 
wish you the best in your efforts to maintain and improve our 
Nation's transportation system, and thank you for listening.
    [The prepared statement of Mr. Searles follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       
    Senator Baucus. You bet, Mr. Searles. Thank you very much.
    I notice that the Senator from Rhode Island is here with a 
big smile on his face. I think he would like to introduce our 
next witness.
    Senator Whitehouse. I would be delighted to, Mr. Chairman. 
I thank you and the Ranking Member for this opportunity.
    Michael Lewis is our director of Transportation in Rhode 
Island and I am very pleased that he is here joining the panel. 
He is a very talented individual. Many of my colleagues will 
know, Rhode Island has been hit with particularly tough 
economic times.
    Into a 12 percent unemployment rate, Michael was able to 
lead the Rhode Island Department of Transportation to be the 
most efficient and fastest at getting out the Recovery Act 
funding into Rhode Island, supporting literally thousands of 
jobs, some cases very creatively, by investing in projects that 
kicked off much more significant private sector development 
that would not have been possible had the access not been 
provided with the stimulus work. There is a project in Johnston 
in particular that I remember opening with him where there were 
literally tens of millions of dollars freed up and put to work 
in the private sector because of the stimulus funds that he 
deployed there to open up the area that needed the 
rehabilitation.
    We also had the worst floods in living memory in Rhode 
Island and the response of the Department of Transportation in 
Rhode Island was so good that the U.S. Department of 
Transportation has chosen the Rhode Island response as its sort 
of best practice model going forward.
    So he brings a great deal of talent and I am delighted to 
have the chance to introduce him.
    Thank you for being here, Michael.
    Senator Baucus. Your State has set a very high standard for 
you to follow.
    Mr. Lewis. That is a lot to live up to.

 STATEMENT OF MICHAEL LEWIS, DIRECTOR, RHODE ISLAND DEPARTMENT 
                       OF TRANSPORTATION

    Mr. Lewis. Thank you, Mr. Chairman, Members of the 
committee, Senator Whitehouse.
    Senator Sanders. I want to point out that I was a civil 
engineering student at UVM when you were Mayor of Burlington, 
so it is nice to see you again. A lot of time has passed.
    My name is Michael Lewis. I am the director of the Rhode 
Island Department of Transportation. I am also on the Board of 
Directors of the Rhode Island Public Transit Authority, the 
Rhode Island Turnpike and Bridge Authority, and the Rhode 
Island Public Rail Corporation.
    Today, I will focus my testimony on three main points. 
First of all, Rhode Island has made great strides in 
effectively managing our transportation system using all the 
tools and resource currently available. Second, despite sound 
and hopefully creative management efforts, Rhode Island is 
still facing a critical crisis in preserving and rehabilitating 
our existing infrastructure. Third, Rhode Island will need an 
increase in funding at Federal and local levels, and more 
flexibility in the use of Federal resources in order to make 
progress in bringing our highway infrastructure into a state of 
good repair.
    Rhode Island, I hope, has effectively and efficiently 
managed its transportation resources using innovative 
approaches, including the use of TIFIA loans, GARVEE financing, 
and performance measures. Using the tools and resources we have 
had available, we have relocated a major portion of Interstate 
95 and Interstate 195 in the heart of Providence with very 
little disruption to traffic during that undertaking.
    We have undertaken a freight rail improvement project that 
has led to the expansion of commuter rail service from Boston 
to Providence and points further south in Rhode Island, 
including a direct connection to T.F. Green Airport, the 
closest rail-air connection in the country. We are currently 
replacing vital bridge links to Aquidneck Island that leads to 
Newport, the biggest tourist destination in the State.
    Rhode Island's transportation infrastructure suffers from 
underinvestment, a national issue not just a Rhode Island 
issue. A December 2008 Governor's Blue Ribbon Panel Report 
entitled Rhode Island's Transportation Future: Reinvesting in 
our Transportation System stated that in order to maintain our 
highway system in a state of good repair, without adding 
additional capacity, just a state of good repair, the State 
would need to invest $3 billion over 10 years, a doubling of 
our current investment just to get into a state of good repair.
    The gap continues to widen as the cost of construction 
materials increases, revenue derived from gas tax decreases, 
and the infrastructure continues to age and deteriorate. 
Decades of underinvestment in maintenance has resulted in a 
downward spiral of condition of the highway infrastructure. At 
the time of the report, over 20 percent of Rhode Island's 
bridges were structurally deficient, nearly 30 percent were 
functionally obsolete, 8 percent were posted, and nearly 2 
percent were closed.
    One of our embarrassments for the State, quite frankly, is 
an Interstate 95 bridge in the city of Pawtucket that has been 
posted with a weight limit of 18 tons for the last 3 years. We 
are currently undertaking a replacement of that bridge, but 
that is a major economic impact on not just Rhode Island, but 
the New England region because it is right on the I-95 
corridor.
    Just south of that bridge that is being replaced right now, 
in the city of Providence we have a structure called the 
Providence Viaduct, also on I-95 suffering similar conditions, 
currently not posted, but in the very near future it will be 
likely be posted unless we are able to find the funds to 
replace it. The cost of replacing that structure would equal 
our total Federal apportionment for a year in the State of 
Rhode Island, one bridge structure in the city of Providence.
    The Providence Viaduct has undergone some repairs, but 
replacement is now the sole option and we need to find flexible 
funding sources to undertake that project.
    Rhode Island is not building new roads. We have had a fix 
it first philosophy for a number of years. RIDOT cannot build 
its way out of congestion. Investing in bus and rail transit 
are the only way to increase travel capacity in our State, an 
indication of some of the differences in some of the regions of 
the country and the States on what are the emphasis areas for 
improving transportation options.
    Exacerbating the problem in Rhode Island is the State's 
historical practice of borrowing the required match to Federal 
transportation funds. Debt service is using more and more of 
the State's gas tax revenue, reducing available funding to 
perform preventive maintenance. We are now at a point where our 
debt service now exceeds what we need to match Federal funds.
    We have to break that cycle, and Governor Chafee has 
recently introduced a bill to do just that. Within 5 years, we 
would become a pay-as-you-go State to wean ourselves off of the 
debt and the borrowing that the State has undertaken.
    We are right out looking over the edge of the cliff in 
terms of financing. We have run out of roads and changing 
direction is our only option. What happens in the Ocean State 
to our transportation infrastructure has local, State and 
national implications. Should the Pawtucket River Bridge or the 
Providence Viaduct have to be taken out of service, hundreds of 
thousands of motorists, goods and services will face 
unimaginable delays.
    Increasing flexibility to the State for tolling, public-
private partnerships to allow commercial use of transportation 
rights-of-way, and innovative financing is essential to allow 
States like Rhode Island to leverage the assistance we get from 
Federal programs. We must recognize the unique challenges 
facing each State, while working toward our common goals. One 
size does not fit all when it comes to national transportation.
    We look forward to working with you to address this 
daunting task ahead. However, with increased flexibility, 
funding and a strong partnership, I believe we can succeed.
    Thank you for providing me the opportunity.
    [The prepared statement of Mr. Lewis follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    Senator Baucus. Thank you, Mr. Lewis.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I was listening with interest as Senator Sanders introduced 
his Secretary of Transportation as being one of the newest 
Secretaries of Transportation in America. Well, I am honored to 
introduce the most experienced and tenured Secretary of 
Transportation in the United States of America, and I want my 
colleagues to listen to him.
    I was first elected to the State Legislature in 1965. That 
was the same year that Gary Ridley came to the Department of 
Transportation in the State of Oklahoma. So we have a lot of 
experience there. Over the years, to this same day today, I 
don't know whether Gary Ridley is a Democrat or Republican. He 
has been the very best. He has been director for a long time, 
then later made Secretary of Transportation.
    But I remember when a good friend of mine, Brad Henry, a 
Democrat, was elected Governor. I called him and I said I only 
have one request, and that is that you keep Gary Ridley running 
the Transportation Division. He said, I was going to do it 
anyway.
    But Gary has just done a great job. I remember in 2002, a 
lot of the Members on this committee may not know that we in 
Oklahoma are navigable. We have a navigation way that comes all 
the way to the city of Tulsa or Catoosa, right outside of 
Tulsa. In 2002, May 26, I think it was, a barge coming up there 
ran into the Webber Falls Bridge going across the Interstate. 
It took out 580 feet. Our estimates were that it was going to 
take 2 years to get that fixed and get things going again. We 
sat down with Gary Ridley. He ended up doing it in exactly 2 
months.
    So I would just say that he does things other people talk 
about doing and it gets them done. He has a lot of concerns. He 
and I talk on probably a weekly basis about the disaster that 
we have throughout the Nation, that we need to have a 
transportation reauthorization bill. There are a lot of things 
that we can all talk about. Some we will agree with and some we 
won't agree with.
    But I am just very delighted to introduce a guy that I 
think is the most experienced Secretary of Transportation in 
the United States of America, Gary Ridley.

  STATEMENT OF GARY RIDLEY, SECRETARY, OKLAHOMA DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Ridley. Thank you, Senator Inhofe.
    Mr. Chairman, I want to thank you, along with Senator 
Inhofe and the other Members of your committee, for your 
leadership and efforts to increase consistency in delivering 
transportation projects in the new reauthorization.
    As we consider the deficiencies of our national 
transportation system in the next highway bill, we recognize it 
will be extremely difficult for Congress to increase the 
Federal transportation funding or even sustain the current 
funding level. Therefore, more transportation dollars must be 
directed to our core infrastructures without set-asides or 
diversions.
    In addition, we must work together to deliver projects more 
efficiently and free from unnecessary bureaucracy and 
regulations. Programs that mandate the commitment of dedicated 
transportation funding to recreational and fringe activities 
such as trails, landscaping, lighting, building renovations, 
should be vigorously reviewed. The logic is questionable when 
the core transportation infrastructure of the country is in 
such deplorable conditions due to lack of investment.
    The Americans With Disabilities Act is an unfunded mandate 
for States and local governments. Everyone should recognize 
that we must do more to accommodate individuals with a physical 
challenge. The ADA requires thoughtful and reasonable 
compliance. It does not mandate the wholesale abandonment of 
common sense. There must be room to focus on the greatest need 
and the highest accessibility returns, while allowing for sound 
engineering judgment in the regular maintenance of our 
highways.
    Surely, it is reasonable to expect that DOTs can execute 
state of good repair highway projects within existing rights-
of-way, without the added expense and delay of Federal 
involvement or regulation. Therefore, when transportation 
system improvements are being implemented within existing 
rights-of-way, a full NEPA and Federal oversight exemption 
should be granted or other non-transportation-related Federal 
regulations should be minimized or eliminated.
    The benefits of this action cannot be ignored. 
Transportation agencies are encouraged to work within existing 
transportation facility footprints and minimize impacts to 
private property and the environment. Also, the State and 
Federal regulatory resources and lead agencies can focus more 
of their attention on quickly delivering critical larger scale 
projects.
    The air quality of the United States has improved to the 
point that meaningful air quality targets that once seemed 
unachievable are now commonplace. Our concern is that EPA 
continues to advance an agenda that ratchets down the targets 
outside their own guidelines, and seemingly with the intent of 
widespread nonattainment.
    The EPA should consider the improvements made and 
acknowledge the benefits that will undoubtedly be realized from 
the clean energy initiative of business, government and the 
public. Air quality targets and guidelines must be established 
that reflect the input of State governments and the private 
sector that do not restrict the economic growth and the 
competitiveness of our country. Now is the time to acknowledge 
the achievements of the past 20 years, rather than implement a 
new set of unachievable targets.
    The EPA is also obligated to establish and enforce water 
quality measures and guidelines. However, we are concerned with 
the far-reaching impact of the indiscriminate stormwater 
regulations will have on transportation systems. Rules and 
regulations are being advanced that require States to manage, 
monitor and potentially treat rainwater that falls in or on and 
run through our transportation rights-of-way. However, the 
quality of the receiving water is impacted to a far greater 
extent by the runoff from other nontransportation-related lands 
that sometimes even discharge into the highway rights-of-way.
    The footprint of the linear transportation system 
represents a microscopic portion of the total land area that 
can be affected by water quality. Yet the cost of regulatory 
compliance is disproportionate to the true benefit of the water 
quality that is in question.
    States have made great strides improving air and water 
quality as they preserve our environmental resources. We know 
that we can perform at a very high level in a less bureaucratic 
and heavily regulated setting. In the case of Federal 
environmental and regulatory issues, we certainly understand 
that not all or will can be eliminated. However, we must strike 
a new balance that quickly delivers transportation improvements 
to enhance the function of our system, the safety of the 
public, and the economic vitality and the longevity of our 
country.
    Mr. Chairman, thank you for your kind invitation and the 
opportunity to offer our perspective on several reauthorization 
issues. We will be more than happy to answer any questions the 
committee may have.
    [The prepared statement of Mr. Ridley follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    Senator Baucus. Thank you very much, Mr. Ridley.
    Next, Senator Barrasso, would you like to introduce Mr. 
Cox?
    Senator Barrasso. Yes, thank you very much, Mr. Chairman, I 
would. Thank you, Senator Inhofe, for holding this hearing on 
the next highway authorization bill.
    Today, I am honored to have join us the director of the 
Wyoming Department of Transportation. His name is John Cox. 
John is not your traditional Department of Transportation 
director. He has a 28-year background in law enforcement and 
since 2005, he has continued to serve Wyoming in his role as 
the Wyoming Department of Transportation director.
    John is so respected in Wyoming that he was first appointed 
to this position by a Democrat Governor, Dave Freudenthal, and 
then recently reappointed by our new Republican Governor, Matt 
Mead.
    John and I worked closely together in the Wyoming 
Legislature when I was Chairman of our Senate Transportation 
and Military Affairs Committee. In fact, we worked together to 
increase the State's highway construction biannual budget from 
$40 million to $200 million.
    John understands rural transportation. As a young 
Patrolman, John drove many miles on the rural roads of Wyoming 
and he knows that we need a national system. We don't need a 
regional system that only serves largely populated urban areas.
    So I know that the committee today will benefit from the 
testimony and wisdom of John Cox.
    Thanks for being with us.

   STATEMENT OF JOHN F. COX, DIRECTOR, WYOMING DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Cox. Mr. Chairman, good morning. It is a privilege for 
me to be here today and, if Senator Baucus were still in here, 
as his immediate neighbor to the south, I would thank him for 
his many years of work, not only on transportation, but on 
other interests with regard to rural States.
    My thanks to Ranking Member Inhofe, to Senator Barrasso and 
to Members of this committee for the opportunity to be here 
today. In my remarks today, I will focus on Wyoming's 
perspective as a rural State, but I want to make it clear that 
we also have much in common with many other States, such as a 
desire to see the highway program simplified with more 
flexibility for the States.
    My main point today is that Federal investment in surface 
transportation in rural States like mine benefits the Nation. 
Oftentimes, discussions of transportation policy omit the 
importance of investing in routes in rural States. My written 
statement today is actually a joint statement together with 
Idaho, Montana, South Dakota and North Dakota. In answering any 
questions later, I will speak for Wyoming, but we are certainly 
pleased to be like-minded and part of a joint written statement 
with these other States.
    Federal investment in surface transportation in a rural 
State is important to the Nation. Let me explain. First of all, 
safety is WYDOT's highest mission priority. It perhaps goes 
without saying that Federal transportation funding enables 
rural States to improve safety on rural routes.
    Wyoming highways are a bridge for truck and personal 
traffic between heavily populated areas. For instance, to move 
between the West Coast and Chicago, freight and people must 
cross rural States. A huge percentage of truck traffic in rural 
States neither begins nor ends in those States. In Wyoming, it 
is an amazing 77 percent, far above the national median. 
Clearly, investments in rural State highways serve the Nation's 
commerce and connectivity.
    Wyoming highways ensure that agricultural and natural 
resource products move from source to markets, including the 
export markets. Rural highways serve agriculture and energy 
needs, including wind energy infrastructure and natural gas and 
oil development. We need surface infrastructure supporting our 
efforts to export agricultural products and reduce dependence 
on foreign oil.
    The truck movements supporting these activities occur far 
from large cities, but support the Nation's economic 
competitiveness and welfare. In my area of the country, many of 
the rural States, including mine, are major exporters of energy 
to our Nation.
    Highways provide access to scenic wonders distant from the 
Interstate highway system. Yellowstone and Grand Teton National 
Parks and Devil's Tower National Monument are locations in 
Wyoming that millions of Americans and international guests 
visit. These destinations are, however, some distance from the 
Interstate highways and in some cases even from the National 
Highway System (NHS), and maintaining Federal aid eligibility 
for the Highways serving this kind of resource helps deliver 
access and helps benefit the American economy.
    The map at the back of my prepared statement illustrates 
the vast gaps between NHS routes in rural western States and 
underscores the importance of maintaining Federal aid 
eligibility for highways in addition to the National Highway 
System.
    Our States face significant transportation funding 
challenges. We are large geographically. We have extensive 
highway networks and we have very low population densities. So, 
we have very few people to support each lane mile of Federal-
aid highway, yet our citizens' per capita contribution to the 
Highway Trust Fund from rural States exceeds the national 
average.
    Past Congresses have recognized that it is in the national 
interest that significant Federal funding be provided to 
support highways and transportation in and across rural States. 
For many reasons, including those I have described, the 
upcoming authorization bill should continue that approach.
    Before I close, Mr. Chairman, let me make just a couple of 
other points. A higher percentage of highway funds, at least 90 
percent, should be distributed to the States by formula. 
Formula programs are generally faster in putting program 
dollars to work, facilitating job generation, as well as 
transportation improvements.
    We also realize the importance of doing more with each 
dollar. States can achieve this if given greater flexibility to 
direct funds to their highest priorities. Set-asides and narrow 
categorical programs should be eliminated in favor of 
flexibility and fewer regulatory and program restrictions.
    Finally, Mr. Chairman, two ways that Congress could 
simplify and streamline the Federal Surface Transportation 
Program would be to, first, harden NEPA review guidelines, and 
then provide for additional categorical exclusions from the 
NEPA review process.
    Mr. Chairman, thank you again for the opportunity to be 
here and I look forward to fielding any questions when the time 
comes.
    [The prepared statement of Mr. Cox follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Carper. Has Mr. Cooper he been introduced?
    Senator Sessions. I introduced Mr. Cooper, and I think he 
would be ready to testify, Mr. Chairman.
    Senator Carper. Are you ready?
    Mr. Cooper. I am ready.
    Senator Baucus. Let her rock and roll. Thank you.

 STATEMENT OF JOHN R. COOPER, DIRECTOR, ALABAMA DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Cooper. Mr. Chairman, Ranking Member Inhofe and Members 
of the committee, good morning. My name is John Cooper and I am 
the director of the Department of Transportation for the State 
of Alabama, and I am here today to testify on behalf of that 
Department.
    We appreciate being given the opportunity to be heard. We 
appreciate being given the opportunity to provide our input to 
the committee. We particularly appreciate Senator Sessions and 
his role in transportation both nationally and in our State.
    My written testimony was provided earlier and is available 
for the record. In the brief time that I have this morning, I 
would like to make just a few points that we believe are 
germane to this discussion, at least from our perspective.
    My testimony is based on the assumption that funding for 
transportation will be difficult, at best, and most probably 
reduced. In our State, revenues from our State taxes on fuels 
generally are at the same level they were 10 years ago. While 
we realize that no final resolution has been reached at the 
Federal level, we assume that some reduction is probable.
    This environment dictates that we use available funds as 
well as possible. Now, I realize that Alabamians may be known 
for maintaining a somewhat strong skepticism to Federal 
regulation, but nevertheless I believe we have some points that 
are worth you hearing and I would like to ask you to consider.
    First, we believe the next reauthorization should reduce 
the number of funding categories to three or at most four. A 
suggestion would be Interstate highways, the national highway 
system, major urban areas, and another category. We believe 
that would be one way to categorize funding that would preserve 
congressional intent, while allowing funding to be more 
efficiently directed within a particular State. The large 
number of categories presently is not necessary and it becomes 
particularly troublesome when we have short-term extensions of 
the Act.
    Second, we believe Federal oversight of transportation 
should be limited to activities of true national interest. 
Clearly, this would mean the Interstate highways and major 
national highways. But we do not believe that the Federal 
Highway Administration should be involved in work that is done 
on minor highways or the bridges on those highways.
    Third, there are numerous areas where Federal regulations 
create additional costs and impede the efficient use of funds. 
Three of those which are referenced in my written testimony 
are, No. 1, situations where bridge re-work is required simply 
because resurfacing is being done on a particular highway; 
second, the application of what are called the logical termini 
regulations to situations where we believe they are 
inappropriate; and third, requirements for updated 
environmental work after only 3 years, which is not long in the 
development of highway systems today.
    In summary, we ask you to consider whether what might be 
called the hands-on involvement of Federal Highways in all 
aspects of road construction and maintenance, supported by 
significant staffing presence in each State, has proven to be a 
sound approach. Would we be better served by regionalized 
oversight function with more responsibility being delegated to 
the States?
    To touch on a couple of other points, we will support the 
inclusion of performance standards in the reauthorization, we 
know that is being discussed, so long as the performance 
standards are tailored the needs of a particular State and so 
long as those standards are not a way for the implementation of 
additional Federal oversight.
    Finally, from the standpoint of our State, I would be 
remiss if I didn't express my concern over the growing emphasis 
on high-speed rail, a mode of transportation that does not 
present a viable solution to problems with transportation in 
our State. We hope your will not use scarce Federal highway 
dollars to support that mode.
    As I said at the beginning, I appreciate the opportunity to 
be here. We thank you for listening to our views and we are 
prepared to address any questions.
    [The prepared statement of Mr. Cooper follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Senator Baucus. Thank you, Mr. Cooper.
    Several points come to mind here. One, we don't have a lot 
of money here. At at the current rate, under a 6-year program, 
the number of dollars spent per year reduced, I think it is 
something like $40 some billion a year, from $42 billion down 
to $28 billion. If we take the 6 years in the current funding 
levels, the annual funding payments would be approximately from 
current $42 billion down to about $28 billion, unless we find 
new revenue.
    I don't think we want to be in that position where it is 
only $28 billion. That is a huge blow to our country.
    Which raises the question of the 6-year versus a 2-year 
bill. I just raise that because if we can't find revenue to pay 
for a full 6-year bill, it might be better to go for a shorter 
which is fully funded for at least those 2 years.
    The next basic question is this: We need to get the highway 
program back into a national program, to restore the pride that 
we once had in the Interstate highway system. President 
Eisenhower conceived the idea and built it, proposed the idea. 
I have forgotten what year we built the Interstate system, but 
it is a national system. It passes through urban States and 
rural States.
    It is true that there are points of congestion. There is no 
doubt about that, in some of the urban States, cities and 
ports. But it is also true that the rural States need a highway 
system, the Federal Interstate. I mention my State, Montana, 
has one of the highest State gasoline taxes in the Nation. The 
Interstate Highway System would stop at the Montana border, 
probably the Wyoming border, maybe North Dakota border if there 
were no Federal system. We can't afford it in Montana, don't 
have the resources. Of course, freight has to go across the 
country. It is a national program.
    So I am just asking a couple of questions and you can take 
any one you want, any one of you. One is what do we do to 
assure we have full funding? We can't have fewer dollars for 
this system. Second, what do we do to get back to the national 
focus on energy so this is an American program? Is it not just 
a little sectional this community and that community, and so on 
and so forth, program. We can leave then things like 
performance standards so people get a better sense of the money 
that is being spent correctly, not wasted.
    Any thoughts? I will just go down the line here. I don't 
have a lot of time here, but Mr. Smith, I will start with you.
    Mr. Smith. Well, Senator, we think that the best way to 
provide the funding for the highway system is from the users. 
Obviously, the fiscal problems of the United States preclude a 
lot of general funds going into transportation. Specifically, 
to move from a gasoline tax to a vehicle mileage tax, which 
represents a surrogate for the older system.
    You really have to go that way because with the 
introduction of hybrid vehicles, electric vehicles and so 
forth, the efficiency of the vehicles is not producing the kind 
of gasoline tax revenues into the fund. So that is one thing.
    The second is to use technology in the areas where there is 
most congestion, to manage transportation demand. Where that 
has been done, it is very successful. The people that need to 
utilize the system in the peak hours pay more for the lane or 
the time of day that they use. With the technology that is out 
there today, both of these are feasible solutions.
    Senator Baucus. Ms. Thomas, your thoughts?
    Ms. Thomas. I would just add that New Mexico is also a very 
rural State. Our largest city is only a half million, so we 
have the same problems Montana has. We don't have the funding 
to maintain a Federal system through our State.
    I would agree with Mr. Smith. A vehicle miles traveled tax 
seems reasonable to me, and also the technology. My daughter is 
a transportation planner. She works in Albuquerque. She is 
familiar with those systems. I know how beneficial they are.
    But I would also continue to put in a plug for other modes 
of transportation. In Southern New Mexico, that is a very high-
poverty place and not everybody in our rural areas can even 
afford automobiles. So we also need public transit.
    Senator Baucus. OK. Mr. Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Senator Baucus. What do you want to do? Go back and forth?
    Senator Inhofe. That would be nice.
    Senator Baucus. Yes, that is what I thought.
    Senator Inhofe. Senator Sessions, I think your witness may 
be leaving, that is why we are deferring to you?
    Senator Sessions. That would be great.
    Mr. Cooper, one of the things I understood, for example, is 
that even a modest repair or work on an intersection could 
result in the State required to do an environmental audit or 
review of a large area of the entire highway. Are those kind of 
things actually happening to your department?
    Mr. Cooper. We have had instances where that has happened. 
We did attempt to widen a two-lane intersection in a rural 
area, of two State highways covered by parts of the Federal 
system. In order to do that, and it would have been to simply 
widen an intersection for about 100 yards, we were required to 
do a corridor study of 7 miles in thought that eventually we 
might want to widen the entire 7-mile corridor between two 
small towns. It took about over a year to do that corridor 
study.
    Senator Sessions. That delayed both your repair at the 
intersection and increased cost for it?
    Mr. Cooper. Well, it increased cost and it actually was a 
safety-motivated repair. We were having and continued to have a 
number of accidents at that intersection. It has poor line of 
sight and poor grade, something that was correctable. But in 
order to do that and protect the ability to use Federal funding 
on that road, we had to study a corridor of 7 miles 
environmentally.
    Senator Sessions. In your judgment, that was not a smart 
use of resources or a legitimate basis to delay the safety 
actions you intended to undertake?
    Mr. Cooper. I think we would acknowledge there is a place 
for the logical termini. We did not believe it was here. The 
problem is that the regulations get written, the rules get 
written, and then they tend to be interpreted rather absolutely 
and rather rigidly without, in our view, any input of common 
sense. We do not believe common sense would have supported 
doing that corridor study for 7 miles.
    Senator Sessions. With regard to your overall challenges 
that you have, I am aware that Alabama has certain serious 
congestion problems in certain aspects of the Interstate 
system, and some of those repairs are exceedingly costly, I 
guess, in terms of the size of Alabama's budget.
    How do you see the Federal-State responsibility there? You 
indicated that you thought the Federal Government should reduce 
its responsibility in the non-major highways and increase it in 
its Interstates and major highways. Would you share a little 
more of your thoughts about that, please?
    Mr. Cooper. Well, clearly the Federal highways are, to use 
an old Southern expression, the big rocks of highways. They are 
the important arterials that connect across our State and 
across our country. Federal involvement, we understand, is very 
necessary there and a shared State-Federal financing is 
appropriate. We accept that involvement and believe it is 
appropriate.
    Our questions on Federal involvement are where the 
tentacles of it go down into rural roads, roads that we do not 
believe have national significance. As to the funding of our 
Interstates, it is almost an insurmountable object in many 
ways. We currently are rebuilding one mile of Interstate in 
Birmingham at a cost of over $23 million. That is competitively 
bid with five responsible bidders. It is a pretty 
representative price.
    We believe that we could spend our entire budget on 
repairing and maintaining the Federal system, the Federal 
Interstate system for a couple or 3 years and probably not 
totally catch up to where we would like to be. I think our 
situation in that regard is reflective of many States.
    Senator Sessions. That's $23 million for that 1 mile in 
Alabama's Federal highway funds?
    Mr. Cooper. It is shared funding. The larger part is 
Federal. It is an Interstate highway.
    Senator Sessions. We get about, what, $500 million to $600 
million from the Federal Government?
    Mr. Cooper. Collectively, we get about $800 million.
    Senator Sessions. Eight hundred million dollars.
    Mr. Cooper. Eight hundred million dollars. Some of that 
goes directly to the large urban areas and the bulk of it, 
about $560 million comes to ALDOT.
    Senator Sessions. Mr. Smith, you mentioned the 
electrification of vehicles and the need to get off our 
dependence on foreign oil and the wealth transfer, the economic 
impact that has. We have been hearing a lot of talk about 
natural gas, increasing supplies and the lower cost. One 
estimate I had recently was that the price of natural gas 
compared to fuel was $24 a barrel. Now, we are over $100 a 
barrel for oil.
    Have you considered, particularly in your localized FedEx 
vehicles, natural gas as an alternative?
    Mr. Smith. Well, Senator, one of the things that the Energy 
Security Leadership Council advocated right at the onset was to 
maximize U.S. production of U.S. oil and gas. Fortunately 
because of technological developments, as you point out, we now 
have large supplies of natural gas that just a few years ago 
were deemed to be unrecoverable.
    So the issue is what can that natural gas best be used for? 
Based on our analysis, it can be very productively utilized for 
centrally fueled heavy fleets: buses, garbage trucks, things 
that began and end at the same point every day. It is probably 
not a particularly cost-effective or energy-efficient system 
for most other transportation based on the experimentation and 
the analysis that we have done.
    We believe, however, that the use of natural gas for the 
production of electricity is hugely important. As I mentioned, 
the Electrification Coalition has been focused very heavily on 
how does the country electrify a large part of our light-duty 
vehicles, personal automobiles and smaller pickup and delivery 
vehicles.
    That is very profound because the operating cost of a small 
vehicles, say, a FedEx Express pickup and delivery vehicle, 
relative to a diesel-powered vehicle, is about a 75 percent or 
80 percent per mile savings. Basically, the power to generate 
that propulsion during the day is already produced during the 
evening and is dissipated because there is no place to store 
it.
    So the real element in electrification is how fast the 
battery technology can produce lower battery costs and 
performance. Today, it is about 100 miles for a charge produced 
overnight. If it is a 220-volt recharge, it is about a 4-hour 
cycle. In four to 5 hours, based on our analysis and the 
Department of Energy, ARPA-E, as they called it, Advanced 
Research Projects Agency-Energy, thinks that those costs will 
give you about a 200 to 250-mile range for a personal 
automobile or a small commercial vehicle, and the price will be 
about 40 percent or 50 percent less than it is today.
    So you are getting pretty close there, but the numbers are 
quite astounding. We burn today about 10 million barrels of oil 
in our light-duty sector. Remember, 98 percent of all 
transportation is fossil fuel; 70 percent of all petroleum is 
burned by transportation. In the light-duty sector, it is about 
half of our oil consumption per day. At a 2.5 percent to 3 
percent GDP growth rate over the next 25 years, that will grow, 
even with the new fuel efficiency standards, if we don't do 
something, to about 14 million barrels a day.
    If you execute the recommendations of the Electrification 
Coalition in the report that we put out, that can be reduced by 
2035 to 4 million barrels a day. So there is a swing of 10 
million barrels a day there between making a major effort to 
electrify and not. The cost is really by Washington standards 
very modest and there is a huge ROI.
    Senator Baucus. Thank you very much, Mr. Smith. Thank you, 
Senator.
    Next is Senator Carper.
    Senator Carper. Thanks. Thanks to all of you for joining us 
today. I have a couple of questions for Mr. Smith and then one 
for the panel. Before I ask those questions, let me say this.
    We last raised the Federal gasoline tax in I think 1993, 
raised it to about 18.5 cents per gallon. Today, we are in a 
situation where we don't have enough money in the 
Transportation Trust Fund to build all that we need to build. I 
think the Nation's engineers have evaluated our transportation 
infrastructure and given it a grade D as in delta. That is not 
good.
    What we do since we don't have enough money in the 
Transportation Trust Fund, we borrow money from our general 
fund. Because there is not enough money in our general fund to 
serve all of our needs, we do around the world and borrow this 
year about $1.5 trillion.
    I know that we have a saying that if things are worth 
having, they are worth paying for. I am very encouraged with 
the idea of a vehicle-miles-traveled approach. I think it makes 
all the sense in the world. Congestion pricing, that kind of 
thing, it makes sense. We can toll. That makes sense. It makes 
a whole lot of sense to move people out of cars, trucks and 
vans where they have densities to other forms of other 
transportation, whether it is buses or trains or transit.
    But we need to raise some revenue here, and nobody wants to 
run away from that. I proposed, along with former Senator 
George Voinovich, that we raise the Federal gasoline tax about 
a penny a month for 15 months. The Erskine Bowles-Alan Simpson 
Deficit Commission came back. They ended up recommending we 
raise it a penny a quarter for 15 quarters. That would give 
pretty much the money that we need to go forward and actually 
take that great D up to something like a C or a B, and to be 
able to meet our needs, but that is the kind of things we have 
to do.
    We have to find the will to raise the revenues. If we are 
not going to do that, we shouldn't be spending all this money 
that we don't have, and simply go around the world hat in hand 
and borrow it. You don't need to hear that lecture from me, but 
I lay that at your feet and I lay it at the feet of my 
colleagues.
    Thank you.
    Senator Carper. Mr. Smith, question. You guys deliver a lot 
of packages every day. God only knows how many you deliver at 
FedEx. I am sure that the kind of price increases that we have 
seen in gas have an inordinate effect, a bad impact on your 
bottom line, and that congestion can have a debilitating effect 
on your ability to deliver on time.
    Could you just give us some idea of what impact congestion 
and the rising price of oil are having on you business?
    Mr. Smith. Well, first of all, Senator, let me reiterate in 
response to your remarks there, we have supported an increase 
in gasoline taxes to fund the transportation infrastructure of 
the country. The problem is, as I just mentioned, as things 
electrify and get more efficient, you are not going to be able 
to raise the revenue from the gas tax to fund it. So you ought 
to decide how much we need to spend and then find an efficient 
funding mechanism, which we would recommend as the VMT, 
transportation demand management.
    Senator Carper. I agree. I agree.
    Mr. Smith. Now, to your specific question, it is hard to 
assess exactly what the cost of congestion is, but there are a 
lot of studies by the DOT that put the cost in lost 
productivity to the Nation in the hundreds and hundreds of 
millions of dollars. So it is definitely something that 
improves our GDP and it reduces our fuel consumption.
    On the effects of high fuel prices on us, we don't try to 
speculate or hedge. We have a base cost of jet fuel and diesel 
fuel in our rates which is put up on the Internet. When it goes 
above that cost on a barrel of fuel, we increase the fuel 
surcharge. Then each year over the last 10 years, we have 
raised our base.
    So the bigger effect is what it does on overall GDP. The 
facts of the matter are our increased use of petroleum, 60 
percent of which is produced abroad, acts as a very deleterious 
tax on the American public when the prices run up, and it 
reduces demand and GDP as a result.
    Senator Carper. OK, thank you.
    I just want to ask one more question, and that is a number 
of experts have noted that the Federal transportation program 
does not have a coherent vision. They have suggested that the 
transportation bill that we are going to work on should 
establish national goals to guide the Federal program. I agree.
    Do you believe that reducing oil consumption should be a 
national transportation goal?
    Mr. Smith. We absolutely think that it should be a goal. 
This is a military and security and economic problem of the 
highest order. Every policy that the government has, including 
our transportation policy, should include some sort of 
petroleum consumption metric as an integral part of the 
process, in our opinion.
    Senator Carper. All right. My time is about to expire.
    Let me just say again, as we have seen this run-up in gas 
prices, we have also seen a dramatic increase of cars, trucks 
and vans being introduced that get considerably better gas 
mileage. I drove for the second or third time this last week 
the Chevrolet Volt, a great vehicle, terrific mileage, terrific 
performance. We are going to start building it in our old G.M. 
plant in Delaware next year, a Fisker product that gets about 
80 miles per gallon.
    So the ability to generate money from the vehicle fuel tax, 
gasoline tax, is going to diminish over time. If we are smart, 
we will do what some others have said and take these heavy 
diesel vehicles especially and begin converting them to 
compressed natural gas. There is a great opportunity to save 
gas there as well.
    But when people, I will be honest with you, folks are 
reluctant to raise a user fee like the gasoline tax, and just 
politically it is a difficult thing to do. But if things are 
worth having, we need to summon the courage to do something. 
Vehicles miles traveled, I would like to say we can turn on a 
switch and it will be there tomorrow. It is not. It is going to 
take a while, a good while, before we can have that kind of 
component.
    In the meantime, I would just ask my colleagues to keep in 
mind, we have seen this run-up in gas prices. In 1 week, gas 
prices go up by more than 15 cents in 1 week, and that is not 
money that goes into improving our infrastructure in this 
country; not money that is going to make us any more productive 
in this country. It is money that ends up in the pockets of 
people in a lot of countries that are unstable, undemocratic 
governments, and we have to be smarter than that.
    Thank you.
    Senator Baucus. Thank you, Senator.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Let me just kind of, well, I would only say this, in line 
with the previous question. I won't ask you a question, Mr. 
Smith, but I would only make an observation. I think everyone, 
it should be a part of this discussion, and that is we in the 
United States have the largest recoverable reserves in gas, 
coal and oil of any country in the world. Our problem is we are 
not developing our own resources. It is a political problem and 
I have nothing against my good friends who disagree with me 
philosophically, but we could be self-sufficient, at least from 
Middle Eastern oil.
    Now, I happen to be, and I looked over here, my two friends 
are not here. I think they are coming back, but I rank normally 
as one of the most or the most conservative Member of the 
Senate. Yet I am a big spender in two areas. One is national 
defense and one is infrastructure. I think that is what we are 
supposed to be doing here.
    I am a little disturbed, more than a little disturbed, 
because when I chaired this committee in 2005, we had the last 
transportation reauthorization bill that we had. It was a 
$286.4 billion bill, and if you take the math that Senator 
Baucus mentioned, it is accurate. If you divide that out, it 
would be $48 billion a year for the 6 years. But if you take 
the transit out, it would be around $42 billion.
    Now, we have some pretty persuasive evidence that even with 
that amount of money, that barely maintained what we have 
today. Here is the big problem. The problem is we need to have 
more money generated for that purpose. I would respectfully 
disagree with Ms. Thomas in some of these areas because one of 
the problems we have had, I can remember back in the days when 
we always had a surplus in the Highway Trust Fund.
    In addition to the problems we have that have already been 
mentioned in terms of fuel efficiency and all of that, one of 
the problems we have, and everybody, and this is the nature of 
government, they all want to hitchhike on anything where there 
is a pot of money. So they all came in. They said, well, we 
want our bike trails in there and we want all this stuff.
    It used to be just bricks and mortar and maintenance and 
bridges. In the State of Oklahoma, I think we are ranked last. 
I will ask Mr. Ridley to see if he agree with this. Either 
Missouri or we are ranked last in the condition of our bridges. 
We had a bridge in Oklahoma City that dropped concrete on a 
lady. It killed her, the mother of two small children.
    This is a real serious problem that we have, and we have 
some ideas on what we want to do to correct this problem.
    Let me ask Mr. Ridley if you could talk about some of the 
Federal red tape that would make our dollars go further, could 
you kind of give us some ideas? Then maybe some of the other 
witnesses would like to share or see if they agree with your 
thoughts on this.
    The Federal red taps is using up a lot of the money that 
could be used for bricks and mortar.
    Mr. Ridley. Senator Inhofe, you are exactly right, exactly 
how much money you would save by the bureaucratic system that 
we have now put in place. The Chairman made mention earlier 
about the trust fund that was enacted in 1956 when President 
Eisenhower signed into law the Interstate law. We have used 
those funds in two ways that has been a detriment on the trust 
fund. One is the bureaucratic regulations that we have to go 
through that really create no value. The second is that those 
funds are used for anything and everything other than what 
their intended purpose was for, and that is to build and 
maintain the national highway system.
    The regulations that you speak of, surely we could all 
agree that working within existing rights of way, the footprint 
of an existing facility, and that if all we are trying to do is 
to keep that system in the state of good repair, to replace the 
existing pavement in kind, not add capacity, but just allow us 
to rebuild that system, surely if we had the chance to be able 
to rebuild bridges on our Interstate system and replace it in 
kind where we stay within our existing footprint, not add 
additional right of way, not have to move utilities, not add 
capacity, that we ought to be able to do that simply and 
efficiently with Federal funds or a joint use of State and 
Federal funds.
    Yet today, we cannot. An example of that would be on South 
Canadian River out west of Oklahoma City on I-40, we have a 
bridge that has a sufficiency rating of less than 40, two 
bridges eastbound and westbound. They are functionally obsolete 
and structurally deficient. They are only 30 feet wide. They 
were built under the old standards back in the early 1960's 
when we first built the Interstate system. Both those bridges 
need to be replaced. We have the money set aside to be able to 
do that. We have been 15 months going through some 12 different 
studies that have to be done in order for us to rebuild those 
two bridges, which seems somewhat ridiculous to me to be able 
to put back a bridge.
    When we get all said and done, we are still going to build 
the bridge. It is going to be in the exact location of the 
existing ones, and we create not value with the studies and the 
regulatory efforts that we have to go through.
    Senator Inhofe. Yes, Mr. Chairman, could I just ask one 
more question of these three witnesses here? In terms of 
streamlining, because we talk about this all the time here, 
what areas do you see, and Mr. Cox, perhaps you could start 
off, where we could actually get a lot more roads for our 
dollars in terms of streamlining?
    I know pretty much what the situation is in Oklahoma. What 
is it in Wyoming?
    Mr. Cox. Mr. Chairman, Senator, first of all, avoid adding 
any additional regulatory burden to the next bill. I am in 
broad agreement with Oklahoma's statement against the backdrop 
of really limited funding, limited fund-raising ability 
perhaps, for the highway program.
    One of the most important things to look at is what are the 
bureaucratic roadblocks and the bureaucratic costs in 
implementing a Federal funding program. So we are very 
concerned about standing up any new Federal regulatory process. 
Last year's bill in the House of Representative talked about at 
least two new offices within the USDOT. We couldn't support 
that at all.
    Mr. Chairman, also one other comment I would say, 
reiterating what I said in my testimony, is give NEPA hard 
deadlines for every applicable comment period. Give them a 
timeline and a failure to tender comments, particularly on the 
part of resource agencies, equals concurrence.
    In our world, where we have rulemaking authority that we 
have to implement in a wide variety of areas, we go out for 
public comment. We publish. We go out for public comment; take 
comments; take them into consideration; make a decision; make 
the rule.
    Senator Inhofe. Well, my time is expired, but do you 
generally agree with that, Mr. Cooper? Just kind of yes or no?
    Mr. Cooper. Senator, I do.
    Senator Inhofe. All right. What I would like to do for the 
record is to ask each one of you to kind of list those areas 
such as you did and several others have, and try to attach 
something on there in terms of the cost, having to do with 
endangered species, NEPA and all these things that might be 
seen as obstacles in terms of getting the most building out of 
our highway dollars.
    So if you could do that for the record, I would appreciate 
it.
    Thank you, Mr. Chairman.
    Senator Baucus. Thank you, Senator.
    Senator Sanders.
    Senator Sanders. Thanks very much, Mr. Chairman.
    Let me just begin, and this has been a really informative 
panel, by making two statements and see if there is any 
disagreement here among the panelists.
    No. 1, is there any disagreement that our infrastructure is 
deteriorating seriously in a very significant way? We all agree 
on that, no matter what our political perspectives may be.
    As a former Mayor, I think you will agree with me that if 
you don't put money into improving your infrastructure, it 
probably doesn't get better the next year. Is that right? In 
fact, it becomes pretty stupid because you end up spending more 
money than you should have spent if you properly maintained.
    Is that correct? OK.
    Now, I want to pick up on the point that Senator Baucus 
made a moment ago. What we have heard today from Mr. Smith and 
others, which I think makes a lot of sense. From an 
environmental perspective, if we get automobiles that get 
better miles per gallon, that is good. I believe that very 
strongly. If we move to an electrification of vehicles, I 
believe that that is good also from an energy independence 
perspective, as well as an environmental perspective.
    But obviously, it is not good in terms of funding the 
Highway Trust Fund. That we all agree on.
    So I want to get back to the I think important question 
that Senator Baucus asked, and just say this. Senator Carper 
made the point that raising the gas tax is politically 
unpopular. Well, it is and it should be. In my State, you have 
many people who today living in rural areas, drive 50, 100 
miles to work; drive 50, 100 miles back. The amount of money 
they are now paying for gas to fill up their tank has soared. 
They don't have the money to pay more to go to work. That is 
the simple reality. Their wages have gone down. Their 
transportation costs are going up.
    So I hope that we can look at other more progressive and 
fair ways of raising revenue to rebuild our infrastructure. We 
heard from Mr. Smith and Ms. Thomas. Maybe we will start with 
Mr. Searles and just go on down the line and just continue Mr. 
Baucus' line of questioning. Where do we raise that money?
    Brian, do you have any thoughts?
    Mr. Searles. One of the things we have done in Vermont 
recently is put a 2 percent tax on gas, not a two cent per 
gallon tax. What that allowed us to do is raise money for a 
transportation infrastructure bond fund so we are borrowing and 
servicing the debt with that. It is a short-term matter, but at 
least we have been able to get the benefit, if you can call it 
that, of rising gas prices for our infrastructure.
    Senator Sanders. OK. Thanks.
    Mr. Lewis.
    Mr. Lewis. Ultimately, the vehicle-mile-traveled tax is the 
true user fee. You pay for what you use. I think there is a lot 
of work to be done to get there. I think that is a future 
revenue source that makes a lot of sense.
    In the meantime, there are other existing user fees that I 
think we can make some better use of. It doesn't work 
everywhere in the country, but there are areas like in the 
Northeast Corridor where I think increased use of tolling is an 
opportunity to raise significant funding as a user fee.
    Take the I-95 corridor, Maine is tolled. New Hampshire is 
tolled. Massachusetts is not. Rhode Island is not. Connecticut 
used to be. New York and New Jersey is. It is a mixed bag. 
There are opportunities in urbanized areas.
    Senator Sanders. Well, let me interrupt you and ask you. My 
understanding is heavy trucks have a lot more negative impact, 
destructive impact on bridges than do small cars. Are we 
properly taxing these heavy trucks for the actual damage that 
they do?
    Mr. Lewis. I would defer to others on that, and perhaps Mr. 
Cox or Mr. Smith. Trucks do pay a larger fee. Whether it is the 
right amount, whether we need to take more control in terms of 
the permitting of excessively overweight trucks, I think that 
is an issue.
    Senator Sanders. But they do more damage than an 
automobile.
    Mr. Lewis. They absolutely do more damage, but they are 
also necessary for the movement of goods and services.
    Senator Sanders. Right. Right. Let me just go on down.
    Mr. Ridley.
    Mr. Ridley. Mr. Chairman, if I may, the idea that we can 
spend our money wise, the existing funds that we have, I think 
is something that we need to consider, on how do we spend the 
existing funds that we have to ensure that we get the biggest 
return on investment. Certainly, again, as we have pointed out, 
that the trust fund was established to build the national 
highway system and that is where the----
    Senator Sanders. But do you disagree that given the 
deterioration of the national infrastructure, that we don't 
need more money?
    Mr. Ridley. No, I think, Senator, with all due respect, I 
think that the State DOTs, it is not our position to tell the 
Members of Congress how to fund the transportation system. I 
think it is our job to explain the problems we have the rules 
and regulations that are set in place, as well as the condition 
of the system and how it is deteriorating. I think that 
Congress has to make those decisions.
    Senator Sanders. OK. Thank you very much.
    Mr. Cox.
    Mr. Cox. Mr. Chairman, Gary said that much better than I 
could have, I think. One comment that I would make is that in 
Wyoming at the legislative level, at the State legislature 
level, there is a very similar debate going on. There is a 
growing acknowledgment of the need for funding for 
transportation infrastructure. There are multiple studies going 
on during the interim between sessions this year.
    The argument over whether or not the need exists has 
ceased. Now, it is an argument over where the money will come 
from.
    Senator Sanders. There is an agreement now that you need 
more money, is what you are saying?
    Mr. Cox. There is certainly agreement there, and I 
recognize the obvious nature of the need for more revenue. 
Again, like Director Ridley said, our position has been to 
communicate the magnitude of the need.
    But also, there is one comment that I want to make with 
regard to the VMT tax. The vehicles miles traveled by the 
average driver in Wyoming is the highest in the Nation at about 
17,000 miles per year. So when that is taken into 
consideration, how do you integrate into that equation how to--
--
    Senator Sanders. So you are suggesting that a VMT tax might 
be unfair to rural areas?
    Mr. Cox. It might have a disparate impact on rural drivers 
unless there is some way to mitigate that.
    Senator Sanders. Good. OK. Great.
    Thank you all very much.
    Thank you, Mr. Chairman.
    Senator Baucus. Thank you.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Director Cox, the map that you included in your testimony I 
thought really highlighted the connectivity challenges that we 
face in Wyoming and Idaho and Montana and North and South 
Dakota. As Senator Baucus has said, Montana and Wyoming allow 
the flow of commerce to move from coast to coast. These are the 
bridge States that keep our transportation system whole.
    Could you elaborate a little bit on the national 
consequences of not adequately funding the rural States like 
Wyoming and Montana?
    Mr. Cox. Mr. Chairman, Senator Barrasso, first of all, I 
guess I would start by saying that Wyoming historically is like 
many other States, I think: very dependent on Federal funding 
to take care of, particularly, the Interstate highways. There 
was a term used by my colleague from Alabama. I can't remember 
exactly what it was, but what we call I-80 in Wyoming is the 
thousand-pound gorilla.
    The fact is, and this is from an established study, I-80 
would take all of our Federal funding. If Federal funding 
remained flat for the next 25 years, I-80 would take all of the 
Federal funding that Wyoming receives to preserve it in its 
present condition, without adding bridges, without adding off-
ramps and on-ramps; without any notion of capacity addition or 
anything like that.
    So the need is obvious. Any cessation or any loss of 
Federal funds is going to have a dramatic impact on that. A few 
years ago, I learned that about 20 percent of the American 
population lives within several hundred mile radius of Chicago. 
Many of the goods that serve that population enter the United 
States at the western ports: L.A./Long Beach, Oakland and 
Seattle. Most of those goods travel by rail and by highway 
across the rural States in order to get to that population 
center. It spreads out from there.
    So, the whole idea of funding these rural bridge States in 
an ongoing sense is absolutely critical, in my opinion.
    Senator Barrasso. You testified that there was a time when 
the Federal Highway Administration was truly a resource for the 
States and the Departments of Transportation, and for 
contractors. But over the past years, the Highway Program has 
become more and more complicated. Red tape continues to slow 
projects, and that, of course, drives up the cost.
    There are so many things I think that Washington gets 
wrong, States get right. Can you talk a little bit about a few 
of the areas where Federal regulations could be maybe scaled 
back to allow the highway dollars to go further?
    Mr. Cox. Mr. Chairman, Senator Barrasso, I guess I would 
reiterate the comments that I made just a little bit earlier 
about avoiding additional regulations in the new bill. Again, 
giving NEPA hard deadlines for all comment periods involved in 
the process we think is critical. I agree with Mr. Ridley's 
comments in the broad context of any kind of reconstruction 
that takes place within the footprint of existing facilities 
needs a categorical exclusion granted.
    Senator Barrasso. When you came in and I mentioned to you, 
Director Cox, that this was quite an impressive panel. You 
said, you know, Gary Ridley is the real deal. Listen to this 
guy.
    Mr. Ridley, is there anything that you would like to add, I 
have another minute or so left, that you think we haven't heard 
yet on this committee?
    Mr. Ridley. No, sir. I think the committee has asked 
questions that were pertinent to the topic. I certainly think 
that my colleagues from the other States have a good grasp of 
the situation. Hopefully, Members of Congress will listen to 
these learned gentlemen and women that you could help the 
situation. It certainly needs our full attention.
    Senator Barrasso. Thank you.
    Director Cox, anything else that you would like to add?
    Mr. Cox. Mr. Chairman, the general question was raised a 
little while ago about a 3-year bill versus a 6-year bill. 
Obviously, the optimum for the States and their ability to plan 
in a long-range sense is a 6-year bill.
    I think we fully appreciate the difficulty of funding for 
the bill, but the longer we have that we can predict funding, 
whether it's Federal funding or State funding, the better off 
we are in the planning sense. Thank you.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    Senator Baucus. Thank you, Senator.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Mr. Chairman.
    Let me first request that an article entitled ``Rhode 
Island Has the Fourth Worst Bridges in the Nation'' be, by 
unanimous consent, made a matter of record.
    Senator Baucus. Without objection.
    [The referenced document follows:]
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Whitehouse. Unfortunately for the Ranking Member, 
Oklahoma is one of the three States that has a higher 
percentage than Rhode Island of structurally deficient bridges, 
but we clearly share an intense concern about this. I wanted to 
ask Mike Lewis, our DOT director, in that vein to talk a little 
bit about the, you mentioned it during your testimony, but 
elaborate a little bit on the situation with the Providence 
Viaduct.
    First of all, does that count as a bridge, even though it 
looks like one. It is not over a body of water or anything. It 
is kind of a highway interchange, goes right by the mall in 
Providence. You drive underneath it and you look up and there 
are boards that have been put across the I-beams underneath it 
to prevent exactly what happened in Oklahoma. It is falling 
through and if it were to fall on somebody, they could be hurt 
or killed. So they have this jury-rigged wooden net, I guess, 
to protect against pieces falling on the traffic below.
    We really need to solve that problem. It is I-95 going 
right through Providence, and if it were to go, it would be 
really very significant in terms of its regional economic 
impact.
    Mike?
    Mr. Lewis. Absolutely, Senator. You are absolutely right. 
As I mentioned earlier, it is one of probably 160 structurally 
deficient bridges in the State. For many States that is a small 
number, but relative to Rhode Island, it is a very large 
number. I-95 is the life-blood of the State. It is the corridor 
from New York to Boston and on up the East Coast and on down to 
Washington.
    So if we were put in a position of having to post the 
Providence Viaduct with weight limits or, God forbid, close it, 
you would be basically cutting off the Interstate corridor 
through the State and cutting off the capital city. There are 
no good detours unlike the Pawtucket River Bridge that we are 
currently detouring commercial traffic.
    The current posted bridges in the State of Rhode Island add 
up to over 800 miles of detour routes. So every day, the 
commercial traffic that has to detour around these posted 
bridges is incurring an aggregate of 800 miles of detours for 
those posted bridges.
    Senator Whitehouse. At huge cost to the trucking industry 
and the shippers and the people who are receiving the goods.
    Mr. Lewis. Just an example of that, one posted bridge in 
the city of Cranston had the RIPTA, our transit agency, had to 
detour the bus route around that bridge. That single detour of 
a single bus route cost the transit agency over $300,000 in 
additional operating costs that 1 year; one bus route because 
of the detour. Multiply that with commercial.
    Senator Whitehouse. So you can extrapolate that. So the 
costs of all this are very high. One of the solutions that we 
have proposed in Rhode Island is to put tolls on I-95 to 
generate some of our own funding since the Federal funding is 
insufficient for these purposes.
    I can remember driving through Connecticut when I-95 was 
tolled in Connecticut and it was a pain in the neck because at 
each toll plaza you bottlenecked and you had to wait. When that 
cleared, it was a real blessing to everybody.
    Could you describe a little bit what the toll technology is 
like now with respect to toll plaza bottlenecks?
    Mr. Lewis. Well, I think the technology today is vastly 
different from that which you described. New Hampshire 
recently, just a year ago, introduced open road tolling at 
their Hampton toll plaza on I-95, which had previously been a 
cash-only facility. The backups in traffic have virtually been 
eliminated. You can travel through the toll plaza using an EZ 
pass transponder at highway speeds, so safety is completely 
eliminated as an issue for cash toll plazas.
    There are other roadways across the country and in Canada 
and around the world that are completely electronic, and that 
may be an opportunity in the future.
    Senator Whitehouse. So it takes the hassle out of tolling.
    Mr. Lewis. It really does. It takes the hassle out. Again, 
it is a user fee that goes directly into that facility, and 
increased flexibility for States where it is appropriate to 
utilize that in the upcoming bill would be very beneficial.
    Senator Whitehouse. In the end of my time, I complimented 
you on the intensity of the effort you put into getting the 
Recovery Act funding out into Rhode Island. Can you comment on 
what you saw in terms of jobs and additional economic activity 
based on the way the Recovery Act was spent in Rhode Island?
    Mr. Lewis. Well, in the small State of Rhode Island, we 
were, as you know, Senator, one of the largest, most impacted 
States in terms of the economy. We are still one of the highest 
unemployment rates in the country.
    By putting a number of jobs out for Rhode Island, spreading 
across the State geographically, as well as different types of 
work to get as many contractors and labor to work. We were able 
to keep people from becoming unemployed in the construction 
industry as much as putting people in new jobs.
    So it was very much of a benefit to the State and 
transportation infrastructure investments, those are good jobs. 
They have a ripple effect. The investment goes back into the 
local economy.
    So I think certainly an increased investment in 
infrastructure has a positive beneficial impact on local and 
regional economies, as well as obviously the national economy.
    Senator Whitehouse. My time is expired. I thank the 
Chairman and the Ranking Member.
    Senator Baucus. Thank you, Senator.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    Again, I appreciate you all being here, appreciate the 
testimony. One of the things, and it just is a recurring theme 
here and was a recurring theme in the House for the 9 years 
that I was there, is all of the bureaucracy and things that go 
on. It seems like that was one of the first things that we were 
talking about. Well, it was. We discussed it then, and if 
anything, the bureaucracy has increased significantly in the 
last 9 years.
    We had the study in the last reauthorization that came out 
that, you know, highlighted this. Yet, we have just got to 
address that problem. That truly is a cost-saver in a very 
difficult financial time. So we do appreciate your testimony in 
that regard.
    Mr. Smith, we had the opportunity to visit the other day 
about some of these issues. You mentioned your views on 
electric cars for the vehicles that are doing the services like 
yourself at FedEx and then maybe the Frito-Lay people.
    Can you talk a little bit about electric cars and where you 
see that going in the future? The reason I bring that up is 
that that is an area where because they would not be 
participating in the gas tax, it is another reason that we 
really do need to figure out in a very fair way how we get 
around that.
    I think coming from Alabama, Mr. Cooper, you brought up the 
fact about the fact that some of our rural States, you know, so 
much traveling is done. If you go to some other system, how do 
you get all that stuff worked out?
    But could you comment a little bit about the electric cars 
and where you see that going in the future?
    Mr. Smith. Well, Senator, I made some comments earlier on 
this, but electrification is a real opportunity for the country 
to significantly reduce energy consumption in general. When 
combined with maximizing our own resources in this country, we 
could significantly reduce the amount of imported petroleum 
that we use. I gave the projection we could actually reduce it 
from about 14 million barrels a day estimated in 2035 to about 
4 million barrels a day.
    On the gasoline taxes, I also mentioned we support a VMT, 
but as was noted a few moments ago and as we suggested to deal 
with congestion, the use of modern RFID taxes can give all 
kinds of information and things could be tweaked in many 
different ways. The larger vehicles that are used in commercial 
transport get about 5.9 miles per gallon. So by definition, 
they pay a higher gas tax into the system because they use more 
gas.
    Well, if you go to a VMT, the transponder needs to be able 
to say, you know, I am a heavy truck. The VMT mileage for that 
truck might be different. Similarly, for State roads or rural 
transportation, which on a gasoline tax if you are driving more 
miles and you have an inefficient vehicle, you are going to pay 
a lot of gasoline tax relative to somebody that is using a 
commute in a metropolitan areas for 10 miles a day.
    So you can adjust the VMT actually easier once you move to 
that kind of velocity. That is why we support that and 
transportation demand management in the major metropolitan 
areas.
    The University of Texas, I think, estimated by the way that 
the cost of congestion in just the top 15 or 20 markets in the 
United States cost the economy about $115 billion a year. So 
there is a lot of improvement that can be made by going to a 
VMT and transportation demand management.
    Senator Boozman. With the added axles and things, do you 
agree that the heavier trucks are harder on the roads?
    Mr. Smith. Sure. The heavier the weight of the vehicle, it 
puts----
    Senator Boozman. Even if you distribute the load out?
    Mr. Smith. Well, it certainly makes a difference, but it 
is, like our airplanes, you know, we have a six-wheel dolly or 
four-wheel dolly. It distributes the weight and it is better, 
but it is the absolute weight that deteriorates the runway. A 
Cessna doesn't put as much wear and tear on the Oklahoma City 
airport as one of our wide-bodies. In the highway area, that 
would be true.
    Now, having said that, we very much support efficiency 
improvements in vehicles. One of the things in my testimony is 
a recommendation that the so-called pups, the 28-foot vehicles, 
be permitted to go to 33 feet. If you saw these vehicles on the 
road, you wouldn't be able to tell the difference between the 
two.
    They are actually more stable and safer, according to our 
drivers. You get about 18 percent fuel improvement. You can 
carry more weight, but again under a VMT, you can account for 
that given the type of vehicle because it can tell the 
transponder as it goes through the EZ pass location, I am a 33-
foot twin trailer rig operating for FedEx or UPS or Conway or 
whoever the case may be.
    Senator Boozman. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Baucus. Thank you, Senator.
    Senator Merkley.
    Senator Merkley. Thank you very much, Mr. Chair.
    Thank you all for your testimony.
    Mr. Smith, I really want to thank you for your detailed 
presentation and your Co-Chairmanship of the Energy Security 
Leadership Council. Many of the issues that you are talking 
about in there are ones that I am deeply interested in. I put 
out last year a report, America Over the Barrel, that 
highlighted many of the same issues. It is tremendous to have 
you working on this. My staff is passing me a copy here.
    But I also want to thank you for the leadership of FedEx in 
this regard. I believe you all have been using quite a lot of 
hybrid Navistar vehicles, but you are having delivery of 
completely electric vehicles starting this year, maybe 400 
vehicles, something of that nature.
    Mr. Smith. We have I think about 400 hybrids, and we are 
just starting to get delivery of the all-electrics. I think we 
have like 25 of those, but that fleet will grow substantially 
in years to come.
    Senator Merkley. OK. I think I saw a press release today 
that by the end of the year, the all-electrics were going to be 
in the hundreds in your company. I am not sure if that was 
right or not, but in that regard, is the range sufficient to 
get one through the day, if you will in terms of fulfilling the 
type of urban routes that you have?
    Mr. Smith. Well, the battery technology that is out there 
today can give you about a 100-mile range, legitimate range, 
because you are going over hills or whatever the case may be. 
There are a significant number of our pickup and delivery 
routes that can be served with all-electrics.
    In the next 5 years, we believe that the battery technology 
will allow a doubling of the range and probably come close to 
halving the battery cost. Then you open up a broader 
perspective.
    On a personal side, about 75 percent to 80 percent of 
personal vehicles in the United States and light-duty vehicles 
are driven less than 40 miles per day. Now, clearly if you use 
it to commute every day and then you want to go on a vacation, 
that is an issue. But as far as urban or city transportation, 
all-electrics in the years to come will offer a very big 
opportunity to use less fuel, create fewer emissions and reduce 
our dependence on imported petroleum.
    Senator Merkley. Yes.
    Mr. Smith. As you know. You are one of the authors of the 
Act to solve this problem.
    Senator Merkley. Well, I want to praise my colleagues. 
Senator Snowe has been very involved and is the chief cosponsor 
of our bill for a National Energy Security Council to take and 
create an organization that would carry a vision for ending our 
addiction to foreign oil over multiple Administrations over a 
couple of decades. Senator Lamar Alexander is co-sponsor of the 
electric vehicle bill and been very involved on that front.
    But I also love and want to recognize that utilizing that 
either hybrid or electric technology allows you to recapture 
the energy lost by everyone else when we come to a stop every 
block, if you will, and those energy savings are enormous.
    I wanted to turn, and Mr. Cox and Mr. Ridley, I think both 
of you mentioned performance measures in your written 
testimony. I have a bill that encourages cities over 500,000 to 
establish a baseline of performance metrics. They choose the 
metrics, so it is not a national vision.
    Those metrics might be congestion. They might be greenhouse 
gas emissions and so on and so forth. Then calls for them to 
develop multiple transportation scenarios to weigh them against 
that metric as they proceed in transportation planning.
    This is essentially so that we get more bang for the buck, 
if you will. But I just wanted to ask you all if that kind of 
fit into your sense of whether or not there is value in the 
performance measure perspective.
    Mr. Cox. Mr. Chairman, Senator Merkley, in the broad sense, 
it would be accurate to say that every State Department of 
Transportation measures front way, back way and cross-wise. So, 
there is a lot of performance measurement going on. We believe 
in that. I think there is consensus in the transportation 
community that performance measurement is critical.
    From Wyoming's perspective, what is important is not to 
impose performance measurement in a transportation bill. I 
think the biggest thing to avoid would be paving the way for a 
Federal agency to measure and pit State DOTs against one 
another, and further and more dramatically, even incentivize or 
disincentivize agencies based upon how they compare with other 
States' performance measures.
    In the broad sense, we support performance measurement. 
That is how we live in our world.
    Senator Merkley. Thank you.
    Mr. Ridley.
    Mr. Ridley. Mr. Chairman, Senator, I certainly agree with 
Director Cox in his assessments of performance measures. In 
taking it one step farther, I think it is important in any 
performance measure, you ought to have a return on investment. 
You cannot compare one community, one State, one region how 
they are able to perform and perform for improvement, make 
improvements, without first taking into account the moneys that 
they have available, either local, State or Federal funds. So 
somehow you have to have a return on investment.
    The other thing I think that is an important component on 
performance measures is I think that the Federal Government and 
the resource agencies ought to have, as Mr. Cox again pointed 
out, a performance measure on how well they do their business 
in reacting to our requests. So I think that that is certainly 
an important aspect of any performance measure.
    So as we progress through a project delivery system, that 
the resource agencies of the Federal Government are also graded 
on their performance.
    Senator Merkley. Thank you both very much.
    Senator Baucus. Thank you, Senator.
    Mr. Smith, I would like for you to just give us a sense of 
the importance of the facility you have in Butte, Montana. You 
have a transfer facility there. It is right off the Interstate. 
In fact, two Interstates cross there at Butte, MT.
    So as we write a bill, a national bill, if you could give 
us a sense of the importance and the relevance of the national 
system in the context of a rural State like Montana, especially 
that new facility you have in Butte.
    Mr. Smith. Well, Senator, as you pointed out and some of 
the others, we have a national economy. The ability to trade 
and exchange goods between Butte and every other point in the 
United States is a huge part of the dynamic of our GDP. We have 
several very important facilities in Montana: the one in Great 
Falls, which you are familiar with, our express location there 
at the airport; the new Butte location is at an intersection 
there in your State that is very productive.
    So you can't deal with this issue on just a State-by-State 
basis. It has to be done at national funding level and then 
complemented, you know, for the rural and less national 
infrastructure on a different basis. So the dollars should be 
apportioned as part of a national system and not as part of a 
balkanized system, in our opinion.
    Senator Baucus. I am just a little frustrated by how we pay 
for all this. To be honest, I have been involved in many 
highway bills. They are basically 6-year bills. I cannot 
remember a time as challenging as today, with all the different 
forces converging. One is the Trust Fund is deteriorating. That 
is a big one. The politics in our country today, it is very, 
very difficult to get additional revenue.
    Obviously, the costs are going up because fuel is going up, 
equipment is more expensive, asphalt is more expensive. You 
have to just keep up.
    Also we have to compete internationally. Other countries 
have very up to date infrastructure systems. It is incredible. 
Not long ago, I was over in China, Chongqing, and was stunned 
when I got off the plane at the airport. It was one of the most 
fancy modern airports I have seen. Then I drove on the highway. 
It is a big Interstate highway system. My gosh, it rivals ours. 
Chongqing is a city population of about 30 million people.
    I asked the Mayor, where did you get all the money to build 
this highway? A little sheepishly, he said, well, the central 
government just gave them the money and built this big highway. 
I thought, gee, that is pretty neat. Too bad we can't do more 
of that in the United States.
    Of course, to be honest, I found out later that they do not 
use their reserves for projects like this, although in China 
the central government decides where all the money goes. As you 
know, it is Chinese policy to move out to the west and central 
China, and so forth.
    But that is just a diversion, although it is challenging 
because we have this big national debt, some of it owned by 
China in their currency reserves, which makes it harder for us 
to come up with additional revenue to borrow more, if you will, 
or to tax more.
    After that, it is just all the changes in technologies. We 
talked about electrification of fleets. I think we should move 
in that direction to the degree that seems to make sense. Then 
all the tensions between urban on the one hand and rural on the 
other.
    Ms. Thomas, I understand your concerns. You live in a 
community where livability is really important. Of course, it 
is important to all our communities, but it is a certain kind 
of livability that is important in Las Cruces.
    So I just urge us all to keep working on this. One thing I 
think we need to do, I am reminded a little bit of efforts that 
we undertook a few years ago on an earlier highway bill, and 
Senator Byrd did a super job, Senator Robert Byrd, and in going 
around the room, all the groups were working on a highway bill. 
He asked each person in the room: Stand up and say what you are 
doing to generate support for this highway bill? What are you 
doing? What are you doing? All the way around.
    Then we met again about, oh, maybe a month later and he 
went back again: What have you done? And so forth.
    I mention that because we might more easily find ways to 
finance our transportation system the more all of us, clearly 
all of you, go out and generate support in your communities, to 
your Governors, your Mayors, your legislators and so forth. 
There is just a dire need that we have facing us. Oklahoma and 
Rhode Island bridges, for example, and the other example, I 
have forgotten what it was, Interstate 80, I guess, in 
Oklahoma. My gosh, level funding just doesn't quite take care 
of it.
    So I just urge all of us to step up because Congress tends 
to respond, frankly. It doesn't lead a lot. It tends to respond 
to what the people at home want. So I urge you to help generate 
some enthusiasm here so we can find some resources to finance 
what we need to do.
    OK. Thank you very much.
    The hearing is adjourned.
    [Whereupon, at 11:55 a.m., the committee was adjourned.]
    [Additional material submitted for the record follows.]
       Statement of Hon. Thomas R. Carper, U.S. Senator from the 
                           State of Delaware
    I would like to welcome our witnesses to this important hearing. I 
am especially pleased that Fred Smith is here. Mr. Smith is the CEO of 
FedEx and Chairman of a group called the Energy Security Leadership 
Council. Given that FedEx delivers 8.5 million packages per day, Mr. 
Smith knows a thing or two about transportation. I am looking forward 
to hearing from Mr. Smith on his thoughts about the U.S. transportation 
system.
    I am also looking forward to hearing from Mr. Smith about the 
impact of America's dependence on foreign oil. This is a topic that I 
am very concerned about, and here is why: The United States consumes 
close to 19 million barrels of oil per day. Of that 19 million barrels, 
about 70 percent, or 13 million barrels, is consumed in transportation. 
Our planes, trains and automobiles consume nearly twice as much oil as 
is consumed by the entire economy of any other country. Let me say that 
again. The U.S. transportation system consumes nearly twice as much oil 
as is consumed by the entire economy of any other country.
    Today, every American is feeling the consequences of our dependence 
on foreign oil. The average price of regular, unleaded gas is now three 
dollars and eighty cents. The price of gas has risen a full dollar 
since last year. We will likely see a national average of four dollars 
per gallon in the near future. These prices are hurting the household 
budgets of every American and the profitability of our businesses. They 
are also hurting economic recovery.
    Mark Zandi, an economist at Moody's, recently said, ``The surge in 
oil prices since the end of last year is already doing significant 
damage to the economy.'' So, this leads to an important question: Is 
our dependence on foreign oil good for the United States? I believe the 
answer is a resounding ``NO''. It is bad for our economy and it is bad 
for our national security. The good news is that we are starting to 
head in the right direction.
    The Obama administration has fast-tracked new CAFE standards to 
reach 36 miles per gallon by 2016 and is currently working on ambitious 
targets that will extend to 2025. These standards have the potential to 
reduce U.S. oil consumption by 20 percent. While this is a significant 
improvement, we must go further.
    The decisions we make in this committee will have significant 
impact on our dependence on foreign oil. As this committee develops a 
new transportation bill, we have an opportunity to create a 21st 
Century transportation system that consumes less foreign oil, not more.
    First, we must establish a national goal for reducing 
transportation oil consumption. This goal should be incorporated into 
the states' long-range transportation plans so that our local partners 
are working toward the same goal. Second, we must target areas with 
high congestion and offer transportation options that are less 
petroleum-intensive. Our dependence on foreign oil is not a Democratic 
issue or a Republican issue and the solutions need not be political. 
Reducing foreign oil imports will improve our national security and 
strengthen the economy.
    I am looking forward to working with Chairman Boxer and Ranking 
Member Inhofe to make sure the transportation bill takes us in the 
right direction.
                               __________
   Statement of Hon. Bernard Sanders, U.S. Senator from the State of 
                                Vermont
    Thank you, Madame Chairwoman for calling this hearing on the next 
surface transportation bill.
    I would like to welcome Brian Searles, Vermont's Secretary of 
Transportation. Brian has only been on the job a few months, but he is 
no stranger to transportation issues. In fact, this is his second stint 
as Transportation Secretary during more than 40 years in public 
service. Brian has been the director of Burlington International 
Airport; he has been a police chief, a city manager, the director of 
the Vermont Criminal Justice Training Council, the State Commissioner 
of Personnel, and the Deputy Secretary of Administration. Welcome, 
Secretary Searles.
    Brian is going to talk about an issue that is very important to me: 
rural and small State concerns in the transportation bill.
    To my mind, it is very unfortunate that urban and rural interests 
are sometimes framed as being in opposition with one another. There is 
an idea held by some people that transportation money spent on rural 
areas is money ill-spent. That rural transportation projects simply do 
not have sufficient ``cost-benefit'' to merit Federal funding. That the 
only reason rural projects get funded at all is because of political 
considerations.
    Madame Chairwoman, I'm sure you agree that rural areas contribute 
greatly to this nation's economy. Our Federal transportation policy 
must address rural needs just as it must meet the needs of our Nation's 
largest ports, urban transit systems, and more heavily traveled 
highways and bridges.
    While it is absolutely appropriate for this committee to focus 
greater attention on ``projects of national significance,'' we must 
also take into account projects of regional significance, as well.
    When we debate new financing mechanisms--like the National 
Infrastructure Bank--we must make sure they are useful for rural 
projects, and not just for large-scale, revenue-producing projects.
    As we consider funding formulas and programs, we must make sure 
that rural areas are not left behind. I congratulate my colleague, 
Senator Barrasso, for introducing a rural mobility bill last session in 
response to a proposal that would have directed $50 billion just for 
urban mobility projects.
    The reality is that the current system for planning, building and 
maintaining infrastructure is not keeping up with the needs of rural 
America. Let me quickly mention a few challenges.
    It is no secret that low-income rural residents, the elderly, and 
the disabled have few transportation options. Thirty-eight percent of 
rural residents live in areas that have no public transit options at 
all--and the transit options that do exist are very limited.
    The rural poor have to drive long distances--often in older model 
cars that get poor gas mileage--to get to low paying jobs, to see a 
doctor, or to go to school. A recent study showed that rural households 
in the lowest 20 percent income bracket spend an average of 42 percent 
of their limited incomes on transportation. Forty-two percent. That 
doesn't leave a whole lot for other basic needs, like shelter, food, 
clothing and healthcare.
    Meanwhile, America's rural infrastructure is old, and outdated. In 
my State of Vermont, just under a third of our bridges are either 
``structurally deficient or functionally obsolete,'' and fully 60 
percent of those have structural deficiencies. It is well beyond the 
capacity of a small State like ours to make these urgently needed 
bridge repairs.
    According to the Federal Highway Administration, 36 percent of 
Vermont's Federal aid roadways are rated ``not acceptable'' and are in 
need of major repairs or replacement.
    Given the need to drive long distances and the condition of rural 
roads, it is not surprising that the rural highway fatality rate is 
more than twice the urban rate per mile driven.
    Let me conclude by saying this: We have heard in previous hearings 
about the dire need to invest in our nation's roads, bridges, transit, 
and high speed rail. We have heard that failure to make these 
investments could jeopardize our long-term economic competitiveness in 
the global economy. We have heard that investing in infrastructure 
supports millions of decent paying jobs that cannot be out-sourced or 
off-shored.
    I strongly believe the next surface transportation bill can address 
the enormous infrastructure needs of our cities--which we all know have 
been ignored for far too long--as well as the needs of rural America. 
We, as a Nation, can and must do both.
    Let's get it done. Let's reinvest in America.
                               __________
 Statement of Hon. Tom Udall, U.S. Senator from the State of New Mexico
    Thank you, Senator Baucus for holding this hearing to focus on 
issues critical for surface transportation reauthorization. I am 
pleased to welcome today a witness from Las Cruces, New Mexico. 
Councilwoman and Mayor Pro-Tem Sharon Thomas.
    Since being elected to the City Council, Sharon has been working 
with the city of Las Cruces and the Las Cruces MPO to enhance their 
transportation system. While improving mobility for vehicles, the City 
and MPO have also been successful in improving modal choices for all 
members of the community as well as making the system overall safer 
through programs like safe routes to school and complete streets.
    Transportation reauthorization is critical for our states and local 
communities. We need to work together to provide a long term 
reauthorization bill so that they are able to plan ahead. They need to 
know what funding will be available to determine what maintenance needs 
will be able to be met and where critical capacity expansion can occur.
    But the reauthorization bill also provides us with an opportunity 
to change the way our system is developed. We need to ensure that 
vehicles can get efficiently from their origin to their destination--we 
also need to improve mode choice for people who cannot or choose not to 
drive. When people are able to take the bus, walk or ride their bike to 
their destination, there are fewer cars on the road which leads to less 
congestion.
    Too often the discussion about providing bike lanes or sidewalks or 
more buses is focused on taking funding away from our `core' 
transportation focus, roadways. While that may be, on one level, 
correct, it is not entirely accurate. Successful bike, walk and transit 
projects are often located within the densest part of any community. In 
the sections of town, where there is no longer room to add additional 
roadway capacity. By providing mode options, capacity is often 
increased and not, as many argue, decreased.
    In most cases, communities where these investments are made also 
enjoy external benefits beyond roadway capacity improvements. Areas of 
town, that accommodate all users become desired places to live and to 
work--they become safer for vehicles and for pedestrians and cyclists--
economic development opportunities increase--and the people who live 
and work in these areas become healthier through more exercise and 
better air quality.
    As we continue to discuss reauthorization it is critical that we 
look at our nation's transportation system and find areas in which we 
can improve. I look forward to hearing the ideas of the witnesses and 
working together with the members of this committee to incorporate 
those ideas into a long term surface transportation bill.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
